No.

IN THE
SUPREME COURT OF THE UNITED STATES

" ema hoshen — PETITIONER
(Your Name)

VS.
ice
United States. of Benin RESPONDENT(S)

PROOF OF SERVICE

IL, \emo. lash \ LA , do swear or declare that on this date,

jol\y 20.0, as required by Supreme Court Rule 29 I have
‘served the enclosed MOTION FOR LEAVE TO PROCE: Bran PAUPERIS +
Application and PETITION FOR A WRIT OF CERTIORARIon each pi Word TiN Bove proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days. : o

The names and addresses of those served are as follows:

iver Ge i Ro

= —— hth Gc oF niin Sins — oc Sal
\hchimeta? De_40S30-G00 |

I declare under penalty of perjury that the foregoing is true and correct.

Executed on_12| I ap 0

 

       

FEIVED
3 2021

F THE CLERK
WE COURT. US.

    

    
